1a
If this opinion indicates that it is “FOR PUBLICATION,”
it is subject to revision until final publication
in the Michigan Appeals Reports.
===========================================================================================
STATE OF MICHIGAN
COURT OF APPEALS
STEVEN R. LILLY,
Plaintiff-Appellee/
Cross-Appellant,
v.
GRAND TRUNK WESTERN
RAILROAD COMPANY,

UNPUBLISHED
January 17, 2019
No. 338677
Wayne Circuit Court
LC No. 16-001908-NO

Defendant-Appellant/
Cross-Appellee.
Before: K. F. KELLY, P.J., and RIORDAN and GADOLA, JJ.
PER CURIAM.
Defendant appeals by right a final judgment following a jury trial on plaintiff ’s action under the Federal Employers Liability Act (“FELA”), 45 USC 51 et
seq. We affirm but order remittitur.
I.

BASIC FACTS

Plaintiff alleged that his early-onset osteoarthritis
(“OA”) requiring bilateral hip replacement was due to
repetitive cumulative trauma he experienced during
his decades working as a carman for defendant.

2a
Plaintiff argued that defendant failed to provide him
with a safe working environment. In contrast, defendant argued that plaintiff was provided a safe working
environment and that plaintiff ’s OA was attributed to
a congenital hip condition known as femoral acetabular impingement (FAI). The jury found for plaintiff.
The trial court denied defendant’s many post-trial motions. Defendant now appeals by right.1
II.

PLAINTIFFS’ EXPERTS

Defendant argues the trial court abused its discretion when it denied defendant’s motions to exclude Dr.
Robert Owens Andres as an expert in ergonomics and
biomechanics and Dr. Robert Samuel Widmeyer as an
expert in orthopedic surgery. We disagree.
We review the circuit court’s decision to
exclude evidence for an abuse of discretion. An
abuse of discretion occurs when the trial court
chooses an outcome falling outside the range
of principled outcomes. We review de novo
questions of law underlying evidentiary rulings, including the interpretation of statutes
and court rules. The admission or exclusion of
evidence because of an erroneous interpretation of law is necessarily an abuse of discretion. [Elher v Misra, 499 Mich 11, 21; 878
NW2d 790 (2016) (quotation marks and footnotes omitted.]
1

Plaintiff has filed a cross-appeal on certain evidentiary
rulings. However, because we affirm, we do not need to address
plaintiff ’s cross-appeal.

3a
“When a party files a FELA case in state court, we
apply federal substantive law to adjudicate the claim
while following state procedural rules.” Hughes v Lake
Superior & Ishpeming R Co, 263 Mich App 417, 421;
688 NW2d 296 (2004) (citation omitted). MRE 702 and
MCL 600.2955 govern the admissibility of expert witness testimony.
MRE 702 provides:
If the court determines that scientific, technical, or other specialized knowledge will assist the trier of fact to understand the
evidence or to determine a fact in issue, a witness qualified as an expert by knowledge,
skill, experience, training, or education may
testify thereto in the form of an opinion or otherwise if (1) the testimony is based on sufficient facts or data, (2) the testimony is the
product of reliable principles and methods,
and (3) the witness has applied the principles
and methods reliably to the facts of the case.
The trial court’s role is that of a gatekeeper and it may
“admit evidence only once it ensures, pursuant to MRE
702, that expert testimony meets that rule’s standard
of reliability.” Gilbert v DaimlerChrysler Corp, 470
Mich 749, 782; 685 NW2d 391 (2004), citing Daubert v
Merrell Dow Pharmaceuticals, Inc., 509 US 579; 113 S
Ct 2786; 125 L Ed 2d 469 (1993).
Similarly, MCL 600.2955 provides, in relevant
part:

4a
(1) In an action for . . . injury to a person or
property, a scientific opinion rendered by an
otherwise qualified expert is not admissible
unless the court determines that the opinion
is reliable and will assist the trier of fact. In
making that determination, the court shall
examine the opinion and the basis for the
opinion, which basis includes the facts, technique, methodology, and reasoning relied on
by the expert, and shall consider all of the following factors:
(a) Whether the opinion and its basis have
been subjected to scientific testing and replication.
(b) Whether the opinion and its basis have
been subjected to peer review publication.
(c) The existence and maintenance of generally accepted standards governing the application and interpretation of a methodology or
technique and whether the opinion and its basis are consistent with those standards.
(d) The known or potential error rate of the
opinion and its basis.
(e) The degree to which the opinion and its
basis are generally accepted within the relevant expert community. As used in this subdivision, “relevant expert community” means
individuals who are knowledgeable in the
field of study and are gainfully employed applying that knowledge on the free market.
(f ) Whether the basis for the opinion is reliable and whether experts in that field would

5a
rely on the same basis to reach the type of
opinion being proffered.
(g) Whether the opinion or methodology is
relied upon by experts outside of the context
of litigation.
Not all seven factors are relevant in every case. Elher,
499 Mich at 27. While each factor is to be considered
by the trial court, not every factor must favor the proffering party. Chapin v A & L Parts, Inc, 274 Mich App
122, 137; 732 NW2d 578 (2007).
Additionally, a trial court’s inquiry when determining admissibility of expert witness testimony is not
“whether an expert’s opinion is necessarily correct or
universally accepted. The inquiry is into whether the
opinion is rationally derived from a sound foundation.”
People v Unger, 278 Mich App 210, 217; 749 NW2d 272
(2008), quoting Chapin, 274 Mich App at 139. “[T]he
trial court’s role as gatekeeper does not require it to
search for absolute truth, to admit only uncontested
evidence, or to resolve genuine scientific disputes.”
Unger, 278 Mich App at 217, quoting Chapin, 274 Mich
App at 139. Instead, the focus is on the scientific validity of the expert’s method, not the correctness or soundness of the expert’s testimony.” Unger, 278 Mich App at
217-218 (citation omitted), quoting Daubert v Merrell
Dow Pharmaceuticals, Inc, 509 US 579, 590; 113 S Ct
2786; 125 L Ed 2d 469 (1993).

6a
A.

ANDRES

The trial court did not abuse its discretion when it
denied defendant’s motion to exclude Andres from testifying. Andres received an undergraduate degree in
Engineering Science from the University of Michigan
(“UM”) in 1973, a Master’s degree from UM in 1976,
and PhD in bioengineering from the UM in 1979. His
PhD was funded by NASA and the National Institutes
of Occupational Safety and Health (“NIOSH”). Andres
did one year of post-doctoral work and was a lecturer
at UM for four years. He left in 1984 to work in a joint
appointment at the Department of Exercise Science
and Industrial Engineering at the University of Massachusetts until 1992. In 1993, Andres incorporated
his business – Ergonomic Engineering, Inc. He assisted companies whose employees had an occurrence
of muscular or skeletal injuries. Andres published approximately 50 peer review publications.
Andres estimated that he had been in railroad
yards more than 150 times and had conducted 29 site
inspections for carmen over the years. In fact, Andres
received funding from the Federal Railroad Administration (“FRA”) to perform research on the effects of
walking on different sized rocks. Andres’s June 22,
2016, report concluded:
The following conclusions have been
reached based on my review of the material
and my education, training, experience, and
background in ergonomics research and the
practice of ergonomics with industrial clients:

7a
Performing the job tasks of carmen/car
inspectors generally exposes workers to certain ergonomic risk factors (i.e. lifting, walking
on uneven surfaces, kneeling and squatting)
which generally have been associated with
(among other injuries and/or illnesses) cumulative trauma disorders of the lower extremities and specifically the hips. Based on what I
have learned and observed, including my
knowledge and analysis of Mr. Lilly’s work,
during the relevant time period, generally Mr.
Lilly was exposed to repetitive work in several
of his job tasks (e.g. walking on uneven surfaces, squatting or kneeling to replace brake
shoes, crawling under cars to chalk tail pin
retainer bolts, coupling air hoses). This repetitive work required awkward postures of the
lower extremities and involved the exertion of
forces to climb, lift, push, pull, and carry.
Generally, to mitigate the effects of certain ergonomic risk factors for cumulative
trauma disorders of the lower extremities, it
is recommended by OSHA, the AAR, NSC,
NIOSH, and GAO[2], and me in my industrial
practice, that a company:
1.

2

Perform an ergonomic screening or
job analysis to prioritize jobs for intervention. Based on the materials I
have seen at this point, during the
relevant time period, [defendant]

At a separate motion hearing, the trial court ruled that
some of these entities could not be referenced and should be redacted from Andres’s report.

8a
generally did not perform such an ergonomic screening or job analysis to
prioritize jobs for interventions.
2.

Implement engineering (preferably)
or administrative controls to decrease worker exposure to ergonomic
risk factors by reducing force exertion requirements, improving working positions to reduce awkward
posture, or improving working conditions like the walking surfaces.
Based on the material I have seen,
during the relevant time period,
[defendant] generally did not implement such engineering and/or administrative controls. Crew sizes
were decreased, no systematic walkway maintenance programs were implemented, and a tool to make it easier
to couple air hoses in cold weather
(Mertin’s bar) was not provided.

3.

Administer the following ergonomic
training to its employees: ergonomic
risk factors for the lower extremity
and early signs and symptoms of
musculoskeletal disorders. Based on
the materials I have seen, during the
relevant time period, [defendant]
generally did not administer such ergonomic training in the following regard: Mr. Lilly was not trained to
recognize lower extremity ergonomic
risk factors, and he was not told

9a
about early signs and symptoms of
musculoskeletal disorders.
Generally, to treat and control certain
lower extremity work-related musculoskeletal disorders of a non-traumatic origin, it is
recommended by OSHA, the AAR, NSC,
NIOSH, the GAO, and me in my industrial
practice, that a company implement the following medical management program: utilize
symptom surveys, and encourage early reporting of signs and symptoms. Based on the
materials I have seen, during the relevant
time period, [defendant] generally did not implement such a program in that they never
administered symptoms surveys nor did they
encourage the early reporting of signs and
symptoms.
In summary, for all of the reasons cited
above, it is my opinion that [defendant] failed
to provide Mr. Lilly with a reasonable safety
and health program that dealt with ergonomic issues that met standard industry work
practices, and, as such, failed to provide Mr.
Lilly with a reasonably safe work place.
Defendant’s primary argument in the trial court
and on appeal is that Andres could not define a threshold level of exposure, which would determine whether
and when a carman would develop hip OA. A similar
argument was rejected in Hardyman v Norfolk &
Western R Co, 243 F 3d 255, 265 (CA 6, 2001). In that
case, the Sixth Circuit concluded that requiring a
plaintiff to establish “a dose/response relationship or

10a
threshold level in a situation where there has been no
scientific study conducted specifically on railroad
brakemen [would] essentially . . . foreclose plaintiffs
from recovering for [carpal tunnel syndrome (“CTS”)]
against negligent employers unless their particular job
has been the subject of a national, epidemiological
study on CTS.” It follows that requiring such evidence
regarding hip OA would be unduly burdensome on a
plaintiff. Here, Andres’s opinions were based on peerreviewed articles addressing the risks associated with
repetitive tasks. Andres’s methods could be tested but
the industry worked to suppress publication of such results. Andres’s opinion that cumulative trauma is associated with the risk of OA is generally accepted by
the scientific community and other courts have endorsed Andres’s methodology. There was support for
his theory that plaintiff ’s hip OA was the result of cumulative trauma.
In Dixon v Grand Trunk Western RR Co, 259 F
Supp 3d 702 (ED Mich 2016), this same defendant
raised a number of similar arguments where the plaintiff claimed that his knee OA was the result of his
working conditions. The defendant argued that there
was a lack of scientific foundation supporting the
plaintiff ’s expert witness testimony regarding causation. The United States District Court for the Eastern
District of Michigan, citing Hardyman, determined
that expert witness opinions on causation were
properly admitted because the plaintiff ’s expert spoke
with the plaintiff, evaluated the plaintiff ’s work history and medical history, and then, relying on the

11a
expert’s expertise, determined “those motions [performed by the plaintiff in the course of his employment
with defendant] could likely cause the sort of OA from
which [the plaintiff ] suffers.” Id. The same is true here.
Andres’s opinions were rationally derived from a sound
foundation. He interviewed plaintiff, considered plaintiff ’s medical records, case materials, scientific literature, and other material concerning exposure to
ergonomic risk facts. There was no reason to inspect
plaintiff ’s jobsite because Andres properly relied on
plaintiff ’s self-reported history.
The trial court did not abuse its discretion when it
denied defendant’s motion to strike Andres’s testimony.
B.

WIDMEYER

The trial court did not abuse its discretion when it
denied defendant’s motion to exclude Widmeyer from
testifying. Widmeyer is a board certified orthopedic
surgeon. He was licensed to practice in Virginia, North
Carolina, Florida, and Maryland and had been qualified to testify as an expert in repetitive trauma in each
of those states. Widmeyer treated a number of railroad
workers for acute injuries over the years. He first
learned of the concept of cumulative trauma injury in
medical school in 1964. Widmeyer personally examined plaintiff and reviewed all of his records. Widmeyer
also reviewed deposition transcripts and plaintiff ’s job
description. He made the following observations:

12a
The first is there is no question at all that
Mr. Lilly’s work tasks during his decades of
employment with the Railroad have far exceeded the limits that his hip joints could
withstand. As a result at a very young age he
has experienced progressive and complete destruction of his hip joints from those activities
...
He is clearly unable to do his regular
work and the restrictions placed on him by his
orthopedic surgeon will remain permanent.
He has no other risk factors that would
contribute to the early destruction of the
joints such as family history of arthritis, any
underlying arthritic or other disease processes, and he has had no specific acute
trauma to either hip joint from a single event,
merely the repetitive overactivity of the joints
placed under an abnormal strain and in unusual positions.
His situation is very simplistic. His activities with the Railroad have been entirely responsible for the destruction of his hip joint,
and therefore all of the treatment of hip joints
related to his Railroad employment, and any
future treatment that he may require regarding his hip joints will be related to his employment with the Railroad.
Widmeyer testified that there were peer review
journal articles and trade publications that supported
the concept of cumulative trauma disorder as a cause
of arthritis. Widmeyer testified that “repetitive injury

13a
has been going on forever and it still is.” Widmeyer had
opportunities to observe carmen performing their
tasks in railroad yards. He also had an opportunity to
walk on mainline ballast. The ballast put undue stress
on the lower extremities. Likewise, kneeling and twisting extended the joints past the neutral position and
caused torqueing. Specifically, in terms of plaintiff,
Widmeyer calculated over his 15 years working as a
carman, plaintiff performed four million squats inspecting railcar and six million squats inspecting the
autorack, which was “excessive and repetitive.”
Plaintiff, whom Widmeyer personally examined,
was not obese or overweight. He was relatively young
at age 54. Widmeyer concluded that “the massive overuse of his hip joints in abnormal positions with abnormal loadings day after day after decade after decade
simply wore the joints down.” As for the theory that
plaintiff suffered from FAI, Widmeyer opined that
plaintiff would have had problems much sooner if he
had FAI. Widmeyer believed that it was a contributing
cause of plaintiff ’s problems and that he had it at the
time he had his arthritis. However, while defendant’s
expert suggested that the FAI caused the osteoarthritis, it was Widmeyer’s opinion that the OA caused the
impingement. Plaintiff had a gradual destruction of
the hip joints and the cartilage wore down.
As with Andres, the trial court properly concluded
that Widmeyer’s testimony was not based on junk
science. Widmeyer spoke with plaintiff, evaluated
plaintiff ’s work history and medical history, and then,
relying on his own medical expertise in treating

14a
patients with OA, determined that plaintiff ’s work
tasks during his decades of employment with defendant far exceeded the limits that his hip joints could
withstand.
The trial court did not abuse its discretion when it
denied defendant’s motion to strike Widmeyer’s testimony.
III.

DEFENDANT’S MOTIONS FOR DIRECTED
VERDICT AND JNOV

Defendant argues that plaintiff ’s case should have
been dismissed, given the absence of evidence that defendant knew or should have known that plaintiff ’s
work environment was unreasonably unsafe. We disagree.
This Court reviews de novo the trial
court’s decisions on a motion for a directed
verdict and a motion for JNOV. A directed verdict is appropriate only when no factual question exists on which reasonable jurors could
differ. The appellate court reviews all the evidence presented up to the time of the directed
verdict motion, considers that evidence in the
light most favorable to the nonmoving party,
and determines whether a question of fact existed. In reviewing the decision on a motion
for JNOV, this Court views the testimony and
all legitimate inferences drawn from the testimony in the light most favorable to the
nonmoving party. If reasonable jurors could
honestly have reached different conclusions,

15a
the jury verdict must stand. [Diamond v
Witherspoon, 265 Mich App 673, 681-82; 696
NW2d 770, 776 (2005) (citations omitted).]
Under FELA:
Every common carrier by railroad . . . shall be
liable in damages to any person suffering injury while he is employed by such carrier . . .
for such injury or death resulting in whole or
in part from the negligence of any of the officers, agents, or employees of such carrier. [45
USC 51.]
“[W]hen Congress enacted FELA in 1908, its attention was focused primarily upon injuries and death
resulting from accidents on interstate railroads. Cognizant of the physical dangers of railroading that resulted in the death or maiming of thousands of
workers every year, Congress crafted a federal remedy
that shifted part of the human overhead of doing business from employees to their employers.” Consol Rail
Corp v Gottshall, 512 US 532, 542; 114 S Ct 2396,
2403–2404; 129 L Ed 2d 427 (1994) (citation and quotation marks omitted). To effectuate this remedial goal,
“a relaxed standard of causation applies under FELA.”
Id. FELA’s language on causation is “as broad as could
be framed,” and “the test of a jury case is simply
whether the proofs justify with reason the conclusion
that the employer negligence played any part, even the
slightest, in producing the injury or death for which
damages are sought.” CSX Transp, Inc, v McBride, 564
US 685, 691–692; 131 S Ct 2630; 180 L Ed 2d 637
(2011) (citations omitted).

16a
“A railroad has a duty to use reasonable care in
furnishing its employees with a safe place to work.”
Atchison, Topeka & Santa Fe R Co v Buell, 480 US 557,
558; 107 S Ct 1410; 94 L Ed 2d 563 (1987). The FELA
is not, however, a workers’ compensation statute; rather, the basis of an employer’s liability “is his negligence, not the fact that injuries occur.” Gottshall, 512
US at 543. What constitutes negligence under the
FELA is a federal question that “generally turns on
principles of common law.” Id.
To prevail under the FELA, a plaintiff need not
show that the employer had actual notice of a dangerous condition in the workplace. Szekeres v CSX Transp,
Inc, 617 F3d 424, 430–431 (CA 6, 2010). “The law is
clear that notice under the FELA may be shown from
facts permitting a jury to infer that the defect could
have been discovered by the exercise of reasonable care
or inspection.” Id. at 430.
Reasonable foreseeability of harm . . . is
indeed an essential ingredient of FELA negligence. The jury, therefore, must be asked, initially: Did the carrier fail to observe that
degree of care which people of ordinary prudence and sagacity would use under the same
or similar circumstances? In that regard, the
jury may be told that the railroad’s duties are
measured by what is reasonably foreseeable
under like circumstances. Thus, if a person
has no reasonable ground to anticipate that a
particular condition . . . would or might result
in a mishap and injury, then the party is not
required to do anything to correct the

17a
condition. If negligence is proved, however,
and is shown to have played any part, even the
slightest, in producing the injury, then the
carrier is answerable in damages even if the
extent of the injury or the manner in which
it occurred was not probable or foreseeable.
[CSX Transp, 564 US at 703–704 (footnotes,
citations and quotation marks omitted).]
“The burden of the employee is met, and the obligation
of the employer to pay damages arises, when there is
proof, even though entirely circumstantial, from which
the jury may with reason make the inference” that the
negligence of an employer played any part in causing
the injury at issue. Rogers v Missouri Pacific R Co, 352
US 500, 508; 77 S Ct 443; 1 L Ed 2d 493 (1957).
The trial court correctly determined that
knowledge was a matter for the jury to decide. In his
report, Andres opines that:
The [Association of American Railroads
(“AAR”)] also evaluated an ergonomics process
to advance safety at the railroads (Ergonomics Programs at Heavy, Industrial Corporations, AAR Research and Test Department, by
P. McMahan and G. Page, February, 1994).
The process involved six major elements:
1.

Define and design the work processes,

2.

Worksite analysis and monitoring,

3.

Analysis of possible problems and solution options,

18a
4.

Implementation of solutions,

5.

Training and education, and

6.

Medical management.

Andres then reviewed the commonly accepted ergonomic risk factors for the lower extremities and how
OA has been associated with occupational activities
like those plaintiff experienced. Andres noted that defendant could have screened for the presence of known
risk factors, but failed to do so. In fact, the industry
resisted ergonomics. Andres concluded that defendant:
(1) failed to perform a systemic worksite analysis as
part of a comprehensive safety and health program
taking ergonomics into consideration; (2) failed to implement systematic hazard prevention and control as
part of a comprehensive safety and health program
taking ergonomics into consideration; (3) failed to provide medical monitoring of employees for musculoskeletal disorders and intimidated those from reporting
early signs and symptoms of musculoskeletal disorders, thereby failing to implement a medical management program with ergonomics in mind; and, (4) failed
to provide effective training to understand what cumulative trauma was or to recognize early signs. He concluded that defendant “failed to provide Mr. Lilly with
a reasonable safety and health program that dealt
with ergonomic issues that met standard industry
work practices, and, as such, failed to provide Mr. Lilly
with a reasonably safe work place.”

19a
The trial court properly denied defendant’s motion
for directed verdict and JNOV, leaving the issue of notice for the jury to decide.
IV.

PRECLUSION

Defendant argues that plaintiff ’s ballast claims
were precluded by the Federal Railway Safety Act
(“FRSA”), 49 USC 20101 et seq. We disagree.
“Whether a federal law preempts a state law or
precludes another federal law is a question of law
which we review de novo.” Nickels v Grand Trunk W
RR, Inc, 560 F3d 426, 429 (CA 6, 2009).
Defendant relies primarily on the Nickels decision.
The plaintiffs in Nickels each claimed that the defendant railroads failed to provide a safe working environment by using large mainline ballast underneath and
adjacent to tracks with heavy foot traffic. Nickels, 560
F 3d at 428. The district courts granted the defendants’
motion for summary judgment, finding that the plaintiffs’ FELA claims would undermine the FRSA’s express intent to achieve national uniformity in railroad
safety regulations. Id. The Sixth Circuit had to examine the interplay between FELA and FRSA, both of
which are designed to promote railway safety. FELA
provides work safety to railroad employees while
FRSA seeks to promote safety in every area of railroad
operations to reduce accidents. Id. at 429. The FRSA
contains a preemption clause in order to ensure that
“[l]aws, regulations, and orders related to railroad
safety . . . shall be nationally uniform to the extent

20a
practicable.” 49 USC 20106(a)(1). The preemption
clause provides that the states may regulate railroad
safety “until the Secretary of Transportation . . . prescribes a regulation or issues an order covering the
subject matter of the State requirement.” 49 USC
§ 20106(a)(2). As to ballast, the FRSA provides:
Unless it is otherwise structurally supported,
all track shall be supported by material which
will—
(a) Transmit and distribute the load of the
track and railroad rolling equipment to the
subgrade;
(b) Restrain the track laterally, longitudinally, and vertically under dynamic loads imposed by railroad rolling equipment and
thermal stress exerted by the rails;
(c) Provide adequate drainage for the track;
and
(d) Maintain proper track crosslevel, surface, and alinement. [49 CFR 213.103.]
Citing Lane v RA Sims, Jr, Inc, 241 F 3d 439, 443
(5th Cir 2001) and Waymire v Norfolk & W Ry Co, 218
F 3d 773, 776 (7th Cir 2000), the Sixth Circuit confirmed that the uniformity demanded by the FRSA can
only be achieved if the regulations are applied similarly to FELA claims. Nickels, 560 F 3d at 430. The
Court added that although “Lane and Waymire addressed FELA claims of unsafe train speed in light of
FRSA speed-limit regulations, the FRSA’s concern for
uniformity leads us to reach the same conclusion

21a
regarding ballast regulations. And while railroads may
face a lesser likelihood of state-law claims alleging
negligent ballast composition, any exposure to conflicting standards undermines uniformity.” Id. Therefore,
“the plaintiffs’ claims are precluded by the FRSA if
they would have been preempted if brought by a nonemployee under state law.” Id.
The Nickels Court concluded that regulation 49
CFR 213.103 covered the subject matter of the plaintiffs’ claims. It noted that “[r]ather than prescribing
ballast sizes for certain types or classes of track, the
regulation leaves the matter to the railroads’ discretion so long as the ballast performs the enumerated
support functions. In this way, the regulation substantially subsumes the issue of ballast size.” Nickels, 560
F3d at 431. The Court further noted that there need
not be any inconsistency for pre-emption to apply: “the
fact that track stability and safe footing are not mutually exclusive does not mean that § 213.103 has not
covered the subject of ballast size. Preclusion and
preemption under the FRSA are not limited to situations where the federal or state standard is incompatible with a regulation.” Nickels, 560 F3d at 431–432.
As the parties note, Nickels has not been uniformly applied, with some courts following Nickels
and other declining to do so. Plaintiff notes that, regardless, Nickels has been abrogated by POM Wonderful LLC v Coca-Cola Co, 573 US 102; 134 S Ct 2228;
189 L Ed 2d 141 (2014). However, even if we found that
POM had no impact on Nickels, defendant is not entitled to relief on this issue. Specifically, plaintiff never

22a
alleged that defendant used improper ballast. Instead,
the issue was raised by defendant’s motion in limine
and further addressed by their own expert. Plaintiff ’s
counsel did not reference ballast in his opening or closing statements. While there was testimony of the difficulty on walking on different sized ballasts, the focus
at trial was whether squatting, bending, kneeling, and
awkward positions placed undue weight on plaintiff ’s
hips, contributing to his hip OA. Plaintiff alleged that
defendant failed to provide a reasonably safe workplace for reasons beyond the issue of ballast. Plaintiff
did not suggest that the ballast was inappropriate; he
suggested that defendant failed to provide a reasonable safety and health program that dealt with ergonomic issues. The trial court instructed the jury
regarding plaintiff ’s theory of the case:
Plaintiff, Steven Lilly, alleges that Defendant, Grand Trunk Western Railroad Company, at the time and place in question was
negligent in the following particulars.
That Grand Trunk Western Railroad
Company through its employees or agents
failed to provide Plaintiff Steven Lilly with a
reasonably work safe place by failing to implement a reasonable safety and health program
that dealt with ergonomic issues that met
standard industry work practices.
Including but not limited to a failure to
perform an ergonomic screening or job analysis,
failing to increase engineering or administrative controls, to decrease worker exposure to
ergonomic risk factors.

23a
Failing to train employees on ergonomic
risk factors of the lower extremities, and early
signs and symptoms of musculoskeletal disorders, and by failing to provide appropriately
empowered and appropriate tools to perform
his work task in a reasonably safe manner.
Defendant is not entitled to relief on this issue regardless of whether the FRSA precluded reference to
ballast size and suitability.
V.
A.

JURY INSTRUCTIONS
STANDARD OR REVIEW

“We review a trial court’s decision regarding jury
instructions for an abuse of discretion.” Alfieri v Bertorelli, 295 Mich App 189, 196; 813 NW2d 772 (2012). “An
abuse of discretion occurs when the trial court chooses
an outcome falling outside the range of principled outcomes.” Edry v Adelman, 486 Mich 634, 639; 786 NW2d
567 (2010).
“[J]ury instructions must be reviewed as a whole,
rather than extracted piecemeal to establish error in
isolated portions.” Hill v Sacka, 256 Mich App 443, 457;
666 NW2d 282 (2003) (internal quotation marks omitted). “There is no error requiring reversal if, on balance, the theories of the parties and the applicable law
were adequately and fairly presented to the jury.” Id.
at 457-458. Reversal is not required unless failing to
do so would be “inconsistent with substantial justice.”
MCR 2.613(A).

24a
B. PLAINTIFF’S ALLEGED
PRE-EXISTING CONDITION
Defendant argues that the trial court impermissibly failed to instruct the jury about the effect of plaintiff ’s pre-existing FAI.
The trial court did not abuse its discretion when it
refused to give defendant’s requested instructions because defendant’s expert testified that plaintiff ’s alleged pre-existing FAI would have resulted in his hip
OA regardless of what he did at work. Therefore, defendant denied playing any part in causing plaintiff ’s
injuries. Moreover, the jury was properly instructed
that it could not find for plaintiff if it did not first conclude that defendant’s negligence caused or contributed to his injury. The trial court instructed the jury:
In order to prove the essential elements
of Plaintiff Steven Lilly’s claims against Defendant, Grand Trunk Western Railroad Inc,
Plaintiff Steven Lilly has the burden to establish by a preponderance of the evidence in this
case the following facts.
First, that Defendant Grand Trunk Western Railroad, Inc was negligent in one or more
of the particulars alleged.
And 2, that Defendant Grand Trunk
Western Railroad’s negligence caused or contributed in whole or in part to some injury and
consequent damage sustained by Plaintiff,
Steven Lilly.

25a
The jury was, therefore, equipped with the knowledge
that defendant could not be negligent if it did not cause
plaintiff ’s injury.
C.

SPECIAL INSTRUCTION ON
DOSE RESPONSE

Defendant argues that the trial court’s instruction
concerning dose response was harmful error and that
the jury should have been allowed to consider the lack
of a dose response relationship. We disagree.
At plaintiff ’s request, the trial court instructed the
jury:
A plaintiff does not have the burden of
proving causation by producing medical
studies involving railroad workers or studies
which establish a base level of exposure which
will cause a worker to develop a medical condition when that level will always vary from
individual to individual.
Stated more succinctly, Plaintiff does not
need to prove a dose response relationship.
Defendant takes this opportunity to repeat the
causation arguments previously rejected. Defendant’s
primary argument in the trial court was that plaintiff
could not define a threshold level of exposure where a
carman would develop hip OA. A similar argument was
rejected in Hardyman. In that case, the Sixth Circuit
concluded that requiring a plaintiff to establish “a
dose/response relationship or threshold level in a
situation where there has been no scientific study

26a
conducted specifically on railroad [brakemen would]
essentially . . . foreclose plaintiffs from recovering for
[carpal tunnel syndrome (“CTS”)] against negligent
employers unless their particular job has been the
subject of a national, epidemiological study on CTS.”
Hardyman, 243 F 3d at 265. It follows that requiring
such evidence regarding hip OA and an instruction
thereon would have been inappropriate.
D.

ASSUMPTION OF RISK

Defendant argues that the trial court improperly
instructed the jury on assumption of the risk because
assumption of risk is not a defense under FELA. We
disagree.
45 USC 54 clearly provides that assumption of the
risk is not a defense to a FELA action. The statute provides:
In any action brought against any common
carrier under or by virtue of any of the provisions of [FELA] to recover damages for injuries to . . . any of its employees, such employee
shall not be held to have assumed the risks of
his employment in any case where such injury
. . . resulted in whole or in part from the negligence of any of the officers, agents, or employees of such carrier; and no employee shall
be held to have assumed the risks of his employment in any case where the violation by
such common carrier of any statute enacted
for the safety of employees contributed to the
injury . . . of such employee.

27a
However, FELA does allow for an employer to argue
that a plaintiff ’s own negligence contributed to his or
her injury, and that any jury award should be reduced
by that amount. 45 USC 53 provides:
In all actions . . . brought against any
such common carrier by railroad under . . .
any of the provisions of [FELA] . . . the fact
that the employee may have been guilty of
contributory negligence shall not bar a recovery, but the damages shall be diminished by
the jury in proportion to the amount of negligence attributable to such employee.
Therefore, plaintiff cannot be found to be negligent for
continuing his work even if he is aware of defendant’s
negligence, but plaintiff can be found contributorily
negligent.
“The statutory elimination of the defense of assumption of risk, when read to the jury in FELA cases
where that ‘defense’ has been neither pleaded nor argued, serves only to obscure the issues in the case.”
Heater v Chesapeake & Ohio R Co, 497 F 2d 1243, 1249
(CA 7, 1974) (internal quotation marks omitted). However, where the issue of assumption of risk has been
raised, and the jury might face confusion regarding
the difference between contributory negligence and
assumption of risk, the assumption of risk jury instruction is properly given in FELA cases. Tersiner v Union
Pacific R Co, 947 F 2d 954 (CA 10, 1991).
The assumption of risk jury instruction was
properly given by the trial court where defendant

28a
raised the issue during trial. During cross-examination, plaintiff acknowledged that the physical tasks
came with the territory of being a carman. Defendant
appeared to suggest that plaintiff knowingly and voluntarily accepted a dangerous condition.
VI.

DAMAGES

Defendant argues that the jury ignored the trial
court’s instruction to reduce their verdict to present
day value. Defendant maintains that the trial court
should have granted defendant’s motion for new trial
and reduced the verdict to present value in the final
judgment. We agree.
Excessive damages “influenced by passion or prejudice” can form the basis of a new trial. MCR
2.611(1)(d). “Alternatively, a trial court may offer the
prevailing party an opportunity to consent to judgment
in the highest amount the court finds is supported by
the evidence.” Heaton v Benton Const Co, 286 Mich App
528, 538; 780 NW2d 618 (2009). “This Court reviews a
trial court’s decision regarding a motion for remittitur
or a new trial for an abuse of discretion.” Id. “An abuse
of discretion occurs when a court chooses an outcome
that is outside the range of principled outcomes.” Id.
During closing arguments, plaintiff ’s counsel discussed the total economic loss plaintiff had suffered:
But Column 3, all right, Column 3, is
what Mr. Lilly’s past wage loss is. And if you
add up those, and if you need a calculator, we

29a
can get you a calculator. But if you add up 51
to 55, you’re going to come up with $252,502.
And if you calculate his future wage loss
from 2017 ‘til the time he’s 65, you’re going to
come up with a total of $1,015,285. That’s the
economic loss. That’s the total economic loss.
And when discussing Question #4 of the Verdict Form
during closing arguments, plaintiff ’s counsel urged:
Four, what is the total amount of Plaintiff ’s damages that he has sustained? Well I
suggest to you that 1,015,285 is the economic
loss. I suggest to you that $1,500,000 is the
compensation for the loss of his health, the
loss of his vitality, the loss of his involvement
with his family.
So if you add those two up you’ve got 1.5
million and you’ve got $1,015,285, and I could
do it on the pad but I’s, I’ll do it in my head,
okay. It’s $2,515,285.
The trial court then instructed the jury:
If you find that Plaintiff Steven Lilly is
reasonably certain to lose earnings in the future, then you must determine the present
value in dollars of such future damages since
the award of future damages necessarily requires that payment be made now in one lump
sum, and Plaintiff Steven Lilly will have use
of the money now for a loss that will not occur
until some future date.

30a
You must decide what those future loses
[sic] will be and then make a reasonable adjustment for current value.
The jury calculated plaintiff ’s damages at
$2,515,285. The jury verdict form did not ask the jury
to provide separate awards for economic and noneconomic damages. It simply provided: “QUESTION
NO. 4: What is the total amount of plaintiff ’s damages
plaintiff has sustained?” The jury answered $2,515,
285.
“[T]he adequacy of the amount of the damages is
generally a matter for the jury to decide.” Heaton, 286
Mich App at 538. “[A] verdict should not be set aside
merely because the method the jury used to compute
damages cannot be determined.” Id. Here, there is no
room for guesswork. Clearly, the method the jury utilized was that suggested by plaintiff ’s counsel – adding
economic damages ($1,015,285) to non-economic damages ($1,500,000) for a grand total of $2,515, 285. The
jury obviously failed to follow the trial court’s instruction to reduce damages to present value. The award
should be reduced to reflect plaintiff ’s expert’s conclusions that plaintiff ’s loss of future earnings – reduced
to present value – is $947,355 – a difference of $67,930.
Pursuant to MCR 2.611(E)(1), the trial court abused
its discretion in failing to reduce the award.

31a
Affirmed in part, reversed in part, and remanded
to grant remittitur. We do not retain jurisdiction.
/s/ Kirsten Frank Kelly
/s/ Michael J. Riordan
/s/ Michael F. Gadola

32a
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE
COUNTY OF WAYNE
STEVEN R. LILLY,
Plaintiff,

Case No. 16-001908-NO
Hon. David J. Allen

v.
GRAND TRUNK WESTERN
RAILROAD COMPANY,
Defendant.
SOMMERS SCHWARTZ, P.C.
Arvin J. Pearlman (P18743)
Benjamin J. Wilensky
(P75302)
Attorneys for Plaintiff
One Towne Square,
Suite 1700
Southfield, MI 48076
(248) 355-0300
CRANWELL &
MOORE, P.L.C.
C. Richard Cranwell
Co-Counsel for Plaintiff
111 W. Virginia Ave.
Vinton, VA 24179
(540) 904-1621

FOSTER SWIFT
COLLINS &
SMITH, P.C.
Michael J. Liddane
(P38639)
/s/ Roderick Byrd
Richard A. Dietz (P31940)
Attorneys for Defendant
28411 Northwestern Hwy.,
Ste. 500
Southfield, MI 48034
(248) 539-9910

ORDER OF JUDGMENT
At a session of said Court held in the
City of Detroit, County of Wayne State of Michigan
on:
December 28, 2016
Present: Hon. David J. Allen

33a
This matter having come before the Court by way
of a jury trial held in the Wayne County Circuit Court
from November 28, 2016 to December 7, 2016 before
the Honorable David J. Allen, and having been tried to
verdict,
IT IS HEREBY ORDERED AND ADJUDGED
that Judgment is entered in favor of the Plaintiff,
Steven R. Lilly, against the Defendant, Grand Trunk
Western Railroad Company, in the amount of
$2,515,285.00.
IT IS FURTHER ORDERED that post-judgment
interest shall accrue on the unpaid amount at the statutory rate from the date of entry of this judgment.
IT IS FURTHER ORDERED that Plaintiff reserves the right to file all permitted post-trial motions
under the rules of the Court, including but not limited
to motions for costs and attorney fees as may be appropriate, and to add any amounts Ordered by the Court
to this Judgment.
IT IS FURTHER ORDERED that Defendant reserves the right to file all permitted post-trial motions
permitted under the rules of the Court.
Pending the filing and resolution of such motions,
this Order does not dispose of the last pending claim
in this matter and does not close the case.
/s/ David J. Allen
CIRCUIT COURT JUDGE

34a
Approved as to form:
/s/ Arvin J. Pearlman
Arvin J. Pearlman (P18743)
Attorney for Plaintiff
/s/ Michael J. Liddane (with consent)
Michael J. Liddane (P38639)
Attorney for Defendant

35a
Order

Michigan Supreme Court
Lansing, Michigan

October 30, 2019

Bridget M. McCormack,
Chief Justice

159155

David F. Viviano,
Chief Justice Pro Tem
Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

STEVEN R. LILLY,
Plaintiff-Appellee,
v

SC: 159155
COA: 338677
Wayne CC:
16-001908-NO

GRAND TRUNK WESTERN
RAILROAD COMPANY,
Defendant-Appellant. /
On order of the Court, the application for leave to
appeal the January 17, 2019 judgment of the Court of
Appeals is considered, and it is DENIED, because we
are not persuaded that the question presented should
be reviewed by this Court.
[SEAL]

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the foregoing is a true and complete copy of the order
entered at the direction of the Court.
October 30, 2019
/s/ Larry S. Royster
Clerk

